                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 800.233.5874
                                                                                            Online Contact Form
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          October 25, 2012

Subject:       Final Report on the Audit of the Peace Corps’50 th Anniversary Program
               (IG-13-01-A)

Transmitted for your information is our final report on the Audit of the Peace Corps’50 th
Anniversary Program.

Management concurred with all eight recommendations. All eight recommendations will remain
open pending confirmation from the chief compliance officer that the documentation identified
in management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix F, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Esther Benjamin, Associate Director, Global Operations
        Lisa Bilder, Chief Acquisition Officer
        Joseph Hepp, Chief Financial Officer
        Charles Kemp, Deputy Chief Financial Officer
        Jennifer Chavez Rubio, Director, Office of Gifts and Grants Management
        Paul Shea, Director, Global Accounts Payable
        Samuel Taylor, Budget Officer, Office of Budget and Analysis
Nina Basiliko, Administrative Officer, Office of the Director
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Peace Corps
Office of Inspector General




       Final Audit Report:
 The Peace Corps’ Management of
  the 50th Anniversary Program
            IG-13-01-A
                                  October 2012
                                  EXECUTIVE SUMMARY
In 2011, the Peace Corps marked its 50th anniversary, commemorating fifty years of promoting
peace and friendship around the world. Beginning in October 2010 and continuing through the
end of 2011, the Peace Corps commemorated the anniversary with a variety of events and
activities in the U.S. and around the world. The common purpose of these commemorations was
to use the 50th Anniversary as a platform to support the agency’s mission and legacy by honoring
its past, demonstrating its effectiveness, and inspiring the next generation of Volunteers through
education and engagement.

Our audit focused on whether the Peace Corps’ 50th Anniversary project team (hereafter “the 50th
team”) was effective in formulating and executing an appropriate budget; complied with
applicable federal laws, regulations, and Peace Corps policy; and had sufficient internal control
over expenditures.

The Peace Corps' 50th Anniversary program (hereafter “the 50th program”) was successful in
achieving its objectives, but was hindered by an inability to track the execution of the budget,
limited control over use of 50th program funding, and the reliance on other offices to perform 50th
Anniversary duties, such as fundraising and communications, which were outside the 50th team’s
span of control. As a result, the 50th team did not capture and track the full cost of the program to
evaluate cost efficiency and ensure deviations from the budget were reasonable and acceptable.

Peace Corps management anticipated funding much of the 50 th Anniversary expenses using
donations raised from institutions and individuals. However, actual donations for the 50 th
Anniversary commemoration were significantly less than the anticipated goal of $1.5 million.
The agency did not appropriately plan for the fundraising efforts required to support a major
event like the 50th Anniversary commemoration. Fundraising efforts were also impacted by the
short timeframe, the need for a more robust fundraising strategy, the lack of a donor database,
and resource constraints. As of March 2012, the agency had incurred approximately $500,000 in
contract and staff costs but collected only $237,621 in donations, 28 percent of which was
received prior to October 2010, when the 50 th program plan was initially developed. As a result,
the agency supplemented donations with appropriated funds for the majority of planned events.

Our sample of 50th Anniversary expenditures generally appeared reasonable and supported the
goals of the commemoration. Overall, the 50th Anniversary expenditures were properly
authorized, adequately supported, and in compliance with applicable laws and regulations.
However, we identified instances of noncompliance with 50 th Anniversary expenditure guidance
and budget coding errors. Further, the agency did not adequately track food and other
entertainment expenses to ensure compliance with laws and regulations.

Our limited review of the three contracts issued to support 50th Anniversary events did not
identify significant issues with the award process or contract administration. We identified areas
of improvement in awarding cooperative agreements.

Peace Corps management concurred with all eight recommendations. Management described
actions they are taking or intend to take to address the issues that prompted each of our


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                      i
recommendations. Management’s corrective actions are ongoing and as a result none of the eight
recommendations can be closed at this time.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program              ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................................... i

BACKGROUND ....................................................................................................................................... 1

FINDINGS AND RECOMMENDATIONS .................................................................................................. 3

           MANAGING THE 50TH ANNIVERSARY PROGRAM ............................................................................................. 3

           FUNDRAISING ................................................................................................................................................... 6

           EXPENDITURES ............................................................................................................................................... 11

           CONTRACTS AND AGREEMENTS ..................................................................................................................... 18


QUESTIONED C OSTS AND FUNDS TO BE PUT TO BETTER USE ....................................................... 23

LIST OF RECOMMENDATIONS ........................................................................................................... 24

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................... 25

APPENDIX B: LIST OF ACRONYMS .................................................................................................... 27

APPENDIX C: 50 TH ANNIVERSARY COSTS ....................................................................................... 28

APPENDIX D: MAJOR TRAVEL COSTS, BY EVENT .......................................................................... 30

APPENDIX E: MANAGEMENT’S R ESPONSE TO THE PRELIMINARY R EPORT ................................ 32

APPENDIX F: OIG COMMENTS ......................................................................................................... 39

APPENDIX G: AUDIT C OMPLETION AND OIG CONTACT ............................................................... 41
                                             BACKGROUND
The Office of Inspector General (OIG) conducted an audit of the Peace Corps’ 50th Anniversary
commemoration, including special events and contracts issued to support the commemoration.
Our objective was to determine whether:

        The program was adequately planned and administered to achieve agency objectives;
        The program complied with laws and regulations; and
        Expenditures (domestic and international) were legitimate and properly authorized.

Appendix A provides a full description of our audit objectives, scope, and methodology .

Laws and Regulations
To understand the nature of the 50 th Anniversary commemoration it is important to understand
the unique mission and authority of the Peace Corps, which includes public awareness. What are
commonly referred to as the “second” and “third goals” of the Peace Corps are stated in the
Peace Corps Act of 1961: “to help promote a better understanding of the American people on the
part of the peoples served [second goal] and a better understanding of other peoples on the part
of the American people [third goal].” To facilitate these goals, the Act states:
        . . . the Director, utilizing the authorities under section 10(a) [22 U.S.C. 2509(a)(1)] of this Act and other
        provisions of law, shall, as appropriate, encourage, facilitate, and assist activities carried out by former
        volunteers in furtherance of such goal and the efforts of agencies, organizations, and other individuals to
        support or assist in former volunteers' carrying out such activities.

The Peace Corps Act also provides “gift authority,” meaning the agency can accept donations to
carry out its mission:

        In furtherance of the purposes of this chapter, the President may . . . accept in the name of the Peace Corps
        and employ or transfer in furtherance of the purposes of this chapter (A) voluntary services notwithstanding
        the provisions of 31 U.S.C. 665 (b) [Now 31 U.S.C. 1342], and (B) any money or property (real, personal
        or mixed, tangible or intangible) received by gift, devise, bequest, or otherwise . . .

These unique goals and authorities, along with the need for the Peace Corps to recruit new
Volunteers, provided the Peace Corps with an opportunity to further its mission under the banner
of a 50th Anniversary commemoration.

50th Anniversary Program
In 2011 the Peace Corps commemorated 50 years of promoting peace and friendship around the
world, a legacy of service that has become a significant part of America’s history. The primary
objective of the commemorative events and activities was to use the milestone as a platform to
honor the Peace Corps’ past, demonstrate the effectiveness of its Volunteers, and inspire the next
generation of Volunteers through education and engagement. The Peace Corps 50th Anniversary
Project Overview listed the following objectives and strategies.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                          1
Objectives. The supporting objectives of the 50 th Anniversary included:

        Raising public awareness of the success and impact of the Peace Corps in fostering peace
        and understanding;
        Advancing the third goal of the Peace Corps in helping to promote a better understanding
        of other peoples on the part of Americans;
        Supporting recruitment efforts to grow the Peace Corps and meet the goals of the
        President and Congress; and
        Recognizing and honoring those who have contributed to the success of the Peace Corps:
        Peace Corps Volunteers, their friends and families, agency staff, host countries,
        community partners, and national leaders.

Strategy. In order to achieve these objectives, the Peace Corps’ strategy was to:

        Create a robust campaign to reach key constituencies in regional, national, and
        international communities;
        Expand relationships with media including national broadcast, print, radio, and online
        outlets;
        Provide additional opportunities to expand domestic and international community
        outreach efforts, including the establishment of new third-party relationships;
        Build and strengthen internal fundraising capabilities with both institutional donors and
        individual Returned Peace Corps Volunteers (RPCVs);
        Raise the agency's profile in the congressional and executive branches; and
        Use events, initiatives, and press outreach associated with the Anniversary to educate the
        public about the vitality and efficacy of the Peace Corps.

To support the efforts, management created a 50th Anniversary team, which planned and
organized events around the country designed to commemorate the 50 th Anniversary. One of the
most significant events was the agency’s participation in the Smithsonian Folklife Festival. The
Smithsonian Institution's Center for Folklife and Cultural Heritage selected the Peace Corps to be
one of three featured programs at the 2011 Smithsonian Folklife Festival. Members of the 50th
team, along with a curatorial advisory committee, began working actively on the programmatic
aspects of this event in June 2010.

The 50th team worked with each of the nine regional recruiting offices (RROs) to develop and
plan appropriate events and activities to support the 50th program's goals around the country. The
50th team collaborated with other offices to issue guidance to the Peace Corps’ 70 posts to
develop and plan appropriate events and activities around the world. Posts and RROs were given
wide license to plan unique events and activities to commemorate the 50th Anniversary, provided
they met program goals and were legal and appropriate.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                      2
                        FINDINGS AND RECOMMENDATIONS
MANAGING THE 50 TH ANNIVERSARY PROGRAM

The Peace Corps used the 50 th Anniversary commemoration to further its second and third
goals while also providing valuable recruitment opportunities. However, the management of
the 50th Anniversary program was hindered by an inability to track the execution of the
budget, limited control over use of 50th Anniversary program funding, and the reliance on
other offices to perform 50th Anniversary duties, such as fundraising and communications,
which were outside the 50 th Anniversary team’s span of control.

As a result, the agency was unable to capture and track the full cost of the program to evaluate
cost efficiency and ensure deviations from the budget were reasonable and acceptable.

In June 2010, the Peace Corps established the 50th team1 to manage and coordinate the efforts
related to the 50th Anniversary commemoration. In October 2010, the 50 th team developed a 50th
program plan, which included the program’s mission, goals, and indicators. To implement the
plan, the 50th team:

        Planned events to meet the 50th program's objectives;
        Developed a budget to fund the events; and
        Oversaw the execution of the planned events.

The 50th team relied on headquarters offices for support, such as the Office of General Counsel
(OGC) for legal support, the Office of Communications for media relations, the Office of Private
Sector Initiatives (OPSI) for fundraising, and the Office of Global Accounts Payable (OGAP) for
payment processing.

Event Planning
The 50th team developed a list of domestic commemorative events to support the 50th program's
objectives and worked with other offices to execute events. According to the 50th team, 50th
Anniversary planning was suspended in 2009 due to the presidential administration change and
the new staff’s need to review and approve the direction of the planning. The 50th team believes
that this delay contributed to the shortened timeframe available to plan and execute 50 th events.

Budget Development and Total Costs
The project plan had a budget of $3,832,865. The 50th team did not track expenses as the
program progressed and did not develop a total cost for the program when it was complete. We
estimate that total actual costs for the 50th program were approximately $3,724,368 ($108,497
less than budgeted). However, we determined that the budget did not contain detailed cost
estimates for each event and omitted other significant costs. See appendix B for details on total
1
 The 50th team originally comprised a director, hired to manage the 50th program, and two project managers,
assigned from other Peace Corps offices. The team later included an additional project manager, an administrative
assistant, a program assistant, and two work-study employees. The deputy director of the Peace Corps was charged
with oversight of the entire 50th program.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                     3
50th Anniversary costs. The 50th team estimated a lump sum of $230,000 in the budget for events
instead of breaking out anticipated costs for each event. Although the Peace Corps did not have
historical information to use in estimating the costs of these events, additional research and
inquiry could have provided the 50th team with a more accurate cost estimate.

The 50th team also omitted certain significant costs from the 50th budget, such as the total cost of
all employee time devoted to the 50 th Anniversary events. Only staff members directly and
materially involved in the 50th team were allocated to the 50 th Anniversary, so staffing costs were
understated in the budget. The budget for the 50th team included staff costs of $871,215, but
actual costs were approximately $1,069,113.

Staff members from other offices, including OPSI, the Office of Communications, and RROs, as
well as staff members from posts, significantly supported the program. However, the 50th team
did not include the costs of payroll and benefits for these staff members in the 50th Anniversary
budget. OPSI staff hours could be reasonably estimated because of the significant amount of
work related to the 50 th Anniversary. Using payroll data provided by Human Resource
Management (HRM) and staff time estimates provided by OPSI staff, we estimated OPSI staff
costs were $364,445, which should have been included in the budget. However, we could not
estimate staff costs for additional offices that supported the 50 th Anniversary, because the agency
does not track employee time to projects and allocating time across numerous projects for work
completed in previous months would have been difficult for staff to estimate, resulting in
unreliable data.

Statement on Federal Financial Accounting Concept No. 2, “Entity and Display” states:

        [Statement of Federal Financial Accounting Standard] SFFAS No. 4, Managerial Cost Accounting
        Concepts and Standards, discusses the need for Government accounting to emphasize cost as a way to
        improve decision making and program management. It says that good cost information can be used for: (1)
        budgeting and cost control, (2) performance measurement, (3) determining reimbursements and setting
        fees, (4) program evaluations, and (5) economic choice decisions.

Allocating time to specific programs, such as the 50th program, is essential for monitoring the
full cost of the program and determining its efficiency. Our audit report on the Peace Corps’
budget formulation process (IG-12-02-A) recommended that the agency develop methods that
identify, track, and report resources, such as personnel and funding, needed to achieve desired
results for strategic and performance goals.

In addition, the 50th team did not appropriately consider staff time at the Smithsonian Folklife
Festival when planning the event. The Peace Corps’ deputy director authorized all employees to
spend up to three work hours at the festival to learn more about the Peace Corps, participate in
panel discussions, and language and game demonstrations, and to join the celebration.
Employees were also given the option to use the Employee Volunteer Program to volunteer at
the festival. To provide a more complete understanding of Peace Corps’ resources used for the
50th event, the 50th team should have considered the amount of staff time spent at the festival
when planning and reporting on the 50 th program.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                               4
Implementation
The 50th team had responsibility to plan and oversee the 50th program but had limited control
over use of funds by other offices. This impacted the ability of the team to ensure the 50th
Anniversary project plan was followed, because the team did not have spending approval for all
50th Anniversary expenditures. Instead, headquarters offices, RROs, and posts had the discretion
to incur 50th Anniversary expenses without the approval of the team. For example, travel costs
were originally budgeted for $145,000, but actual costs were approximately $198,782 (37
percent greater than budgeted).

Some expenditures, specifically “Entertainment/Representational” costs, were miscoded with
incorrect budget object class codes, which are used to classify expenditures according to types of
goods and services, such as personnel, travel, rent, and supplies. These miscodings further
prevented the 50th team from being able to accurately track and monitor actual costs as 50 th
Anniversary events progressed. Further, management decided to use appropriated funds to pay
for some expenses and then reallocate donated funds after all expenses were incurred because
donations were being collected at the same time events were occurring. However, proper
planning could have ensured proper allocation of expenses and helped avoid unnecessary
accounting adjustments. See the “Expenditures” finding for further discussion.

The 50th team did not have a monitoring mechanism in place to match actual spending to the
estimates in the project plan, nor did it clearly define specific outcomes and outputs. Instead, the
50th program plan stated that outcomes would be specific to events, which was intended to allow
event planners greater flexibility in determining efficient use of 50th Anniversary resources.

Implementing the 50th Anniversary plan relied on the successful collection of donations by OPSI
and coordinated public relations efforts by the Office of Communications. Although the 50th
program specialist was the contracting officer’s technical representative (COTR) overseeing the
fundraising and earned media contracts, these contracts relied on OPSI and the Office of
Communications, respectively, to ensure success. OPSI was unsuccessful in meeting the 50th
team’s fundraising goal of $1.5 million (see the “Fundraising” finding below), and the 50th team
issued a stop work order for the earned media contract.

    We recommend:

    1. That the Office of the Director retain documentation of the events, including cost
       information, to use when planning future recruiting and awareness campaigns.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                    5
FUNDRAISING

Actual donations for the 50 th Anniversary commemoration were significantly less than the
anticipated goal of $1.5 million. The 50th team did not develop a goal in coordination with
OPSI that was appropriate in consideration of the agency’s limitations. OPSI was hindered by
a lack of time and resources when the fundraising initiative began and did not have pre-
established procedures and mechanisms, such as a database of historical donor information,
to support a major event like the 50 th Anniversary commemoration.

As a result, the Peace Corps had incurred $133,268 in contract costs and approximately
$364,445 in labor costs, but had collected only $237,621 in donated funds as of March 2012.
The Peace Corps had to use appropriated funds for the majority of the planned events.

In August 2010, the Peace Corps contracted with a major fundraising firm to perform 50th
Anniversary-specific fundraising services, such as developing a capital campaign strategy and
capacity development. The firm was not hired to collect donations or actively fundraise 2 but
rather to provide consulting services to assist Peace Corps staff. The cost of the contract was
$133,268. In addition to the cost of the fundraising contract, we estimate OPSI staffing costs to
fundraise for the 50th Anniversary commemoration to be $364,445.

In October 2010, the Peace Corps hired a new OPSI deputy director to manage 50th Anniversary
fundraising efforts. Despite the steps taken by OPSI and the 50th team to escalate fundraising
efforts in the short timeframe available and overcome the late start, a number of other factors
significantly impacted the Peace Corps' ability to reach its $1,500,000 goal. Based on data
provided by OGAP we compared total donations to the fundraising goals (see Chart 1).

                      Chart 1. 50th Program Costs Covered by Donated Funds
        Anticipated                                                Actual




                          ■ Appropriated Funds                ■ Donated Funds
2
  Peace Corps Office of General Counsel memorandum, Contractor Services for Fundraising for the 50th
Anniversary, June 2010, stated, “special care should be taken in drafting any scope of work and contract approvals
to ensure that the authority for accepting and handling donations and making critical decisions is retained by the
Peace Corps.”


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                      6
Planning
The 50th Anniversary budget presented an estimated cost of $3,832,865, including $1,292,436 in
anticipated donated funds from the 50th Anniversary Fund managed by OPSI. The 50th
Anniversary director established a fundraising goal of $1,500,000 for 50 th Anniversary
donations. The 50th Anniversary director developed the fundraising goal using her professional
experience. However, the Peace Corps could not provide support for how the figure was
calculated and whether it appropriately factored in the short timeframe and limited resources.

Before undertaking such a large and unique endeavor, the Peace Corps did not adequately plan or
prepare the necessary tools and actions needed to raise the amount of funds they required. At the
time the new OPSI deputy director was hired, the agency did not have fundraising guidelines in
place, such as the type of donors they wanted to actively solicit. This, along with other factors
like staffing issues, hindered the agency’s ability to implement many of the recommendations
made by the fundraising contractor.

Some 50th Anniversary events were already taking place before institutional fundraising
guidelines were developed. Although event planning began in early 2010, many event plans were
not finalized until the end of 2010 and the beginning of 2011. According to OPSI, this
significantly impacted the amount of donations the agency was able to collect because many
donors wanted to know what events their donations were funding before they donated.

Timing
The Peace Corps received its first donation for the 50th program in March 2008. However, active
efforts to fundraise did not begin until August 2010. This late start in fundraising had a
significant impact on the amount of donations the Peace Corps was able to collect before the 50 th
Anniversary commemorations began, with the majority of donations collected in 2011 while
events were taking place. In June 2011, the fundraising contractor hired to develop the 50th
Anniversary fundraising strategy communicated to the Peace Corps in its capacity building plan
that it typically takes multiple contacts over 18 to 24 months to secure major gifts, noting that the
Peace Corps may need to allow the full 24 months given that interaction with certain prospects,
particularly corporations, will require approval from the agency. The plan also recommended
that OPSI approach any potential sponsors by the summer before the calendar year in which it
would like to use the funding. For the 50th Anniversary, the majority of fundraising efforts were
initiated when events were already taking place. The late fundraising start prevented the Peace
Corps from collecting large institutional donations, because many institutional donors commit
their funding years in advance and also because Peace Corps needed to approve those donations.
Table 1 shows the amount of donations raised each year from individual and institutional donors
based on our analysis of disbursement data.

                      Table 1. 50th Anniversary Donations by Calendar Year
               Year        Individual Donors        Institutional Donors            Total
             2008                     $   128                 $ 11,000            $ 11,128
             2009                       1,661                    52,500              54,161
             2010                       1,897                     -                   1,897
             2011                      69,257                    46,000             115,257
             2012                       5,178                    50,000              55,178
             Total                   $ 78,121                 $ 159,500           $ 237,621


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                     7
Fundraising Strategy
The Peace Corps' fundraising in the past generally involved grassroots efforts targeted at
individual donors, such as RPCVs and the friends and families of Volunteers, with funds
collected being used to fund small community projects overseas. To fundraise on a larger scale,
the contract solicitation stated the agency would have to employ a different strategy. In response
to this, the contractor focused its strategy on institutional and corporate donations with a goal of
raising the entire $1.5 million from institutional sources. However, OPSI maintained that the
most successful strategy was to prioritize individual donors, with a fundraising goal of $1.1
million for individuals. Although the Peace Corps was successful in obtaining some institutional
donations, a significant portion ($63,500 of the $159,500 total collected) of which were obtained
before the contract was put in place, the actual amount raised fell significantly short of the goal.
See chart 2 for a display of the amount of donations raised by the type of donor based on OIG
analysis of data provided by OGAP.

                           Chart 2. 50th Anniversary Donations, by Type




                                Individual
                                 $78,121
                                   33%




                                                                Institutional
                                                                  $159,500
                                                                    67%




Donor Relationship
The Peace Corps did not have a centralized tracking mechanism in place to record historical
donation information, and it was not feasible to build such a database while fundraising efforts
were underway. The agency may have been able to collect more donations if they had a better
understanding of who had made donations in the past and in what amounts. Because this
centralized donor database did not exist, the agency did not have a complete understanding of
donor demographics, and this had to be developed on an ad hoc basis as fundraising progressed.

Another example of the Peace Corps’ incomplete understanding of donor demographics is the
unsuccessful donor recognition plan that included special 50 th Anniversary gift recognition for
certain donation amounts. For example, at the $1,000 donation level donors received a limited
edition 50th Anniversary print by artist Shepard Fairey. However, because the Peace Corps did
not have a complete understanding of its donor base, the price level was initially set too high and


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                    8
had to be reduced by 50 percent when fundraising efforts stalled. As of the date of this report, the
Peace Corps still had some 50th Anniversary donor recognition items on hand.

In August 2010, in an effort to quickly identify donors with a capacity to give larger donations,
the Peace Corps purchased a wealth screening analysis for individual donors from the
fundraising contractor for $8,270. The wealth screening analysis used the RPCV database and a
database of previous Peace Corps Partnership Program donors to identify individuals with the
capacity to give gifts of $25,000 to $1 million. The wealth screening analysis identified 831
individuals with the capacity to give a total of $44.55 million over 5 years. According to OPSI,
in early 2011 it reached out to all 831 individuals via a donation request letter and other means.
However, total individual donations received during and after 2010 amounted to $76,332. OPSI
had not identified which donors they contacted from the wealth analysis had actually donated to
the 50th Anniversary fund, because they did not have a donor tracking system in place at the
time. Although the amount raised as a result of the wealth analysis was limited, OPSI
management believes that the wealth analysis continues to be a valuable asset that can be used
for future fundraising efforts.

Institutional Donors
OPSI approached a total of 32 major corporations and foundations to solicit for institutional
donations. It succeeded in obtaining donations from 9 of these 32 institutions, receiving a total of
$159,500 in donations. The other 23 institutions declined or were unresponsive. According to
OPSI, the institutions declined to donate for a variety of reasons, including:

        The majority of prospective institutional donors had already dispensed funds for 2011,
        and were working on 2012 and 2013;
        They already gave donations for the 50th Anniversary commemoration to RPCV groups;
        They did not believe a government agency should be fundraising;
        The economic recession affected their capacity to give.

Staff and Resources
The 50th Anniversary fundraising team also faced challenges because of limited staff support and
resources, including a fundraising support staff retention issue. The fundraising contractor
recommended in the June 2011 capacity building plan that the Peace Corps should have four
full-time staff members in place in order to function at the department’s greatest potential and
support a more robust fundraising operation, but during the 50th fundraising efforts the Peace
Corps only had one full-time staff member devoted to fundraising. Also, there were limited
travel funds available for 50th Anniversary fundraising staff to travel to solicit large donations
from institutions and high net worth individuals.

Accounting for Donations
Both Peace Corps management and OGC developed guidance to solicit, track, and manage
donations:

        In 2008, the then deputy director established the 50 th Anniversary fund and assigned
        OPSI the overall management authority for the fund, including tracking and reporting




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                      9
        responsibility, and directed it to work closely with the Office of the Chief Financial
        Officer (OCFO) to fulfill those responsibilities.

        A special sponsor code was established in the Peace Corps’ accounting system to use
        donated funds to pay for specific expenditures, such as entertainment costs.

        The Director approved a decision memo for donor recognition items and amended
        guidance for the revised donor recognition plan.

        OGC issued a legal opinion approving the purchase of branded items for donor
        recognition and awareness-raising purposes.

        The director of OPSI issued guidelines to country directors and RROs on gift acceptance
        limitations, which agency staff members were permitted to accept gifts, and to provide
        criteria for soliciting and accepting donations.

The Peace Corps also established a fund called “The Peace Corps Fund.” The OPSI Action
Memo Regarding Guidance on 50th Anniversary Fund and Establishment of The Peace Corps
Fund states the purpose of the fund:

        [To] support the agency’s special initiative and for other agency activities, as an avenue for potential
        donors to support agency activities that fall outside the 50th Anniversary or the scope of the PCPP. These
        donations may, for example, support additional training of Volunteers or post staff or special initiatives,
        such as a health or water-focused initiative.

This memo also stated that “Transfer of 50th Anniversary donated funds to offset appropriated
outlays will be made in accordance with financial regulations.” Most 50th Anniversary costs were
paid for with appropriated funds, and OCFO was to process an accounting transaction to offset
the appropriated funds with the donated funds. As of March 2012, the Peace Corps had
approximately $131,665 in unexpended 50 th Anniversary donations that had not been reallocated
to expenses initially paid for with appropriated funds. See the “Expenditures” finding for further
details on the costs of specific events.

At the time of this report, the Peace Corps had not clearly communicated its future intent for
donations and whether it will use the tools and knowledge it gained from the contractor to
continue fundraising for other Peace Corps programs and events.

    We recommend:

    2. That the Office of the Director establish the agency’s strategy on fundraising. If the
       Director decides to include the use of fundraising and donations in the agency's
       operations, then develop appropriate goals and provide the necessary resources, such as
       staffing and a donor relations database, needed to accomplish the goals.

    3. That Office of Gifts and Grants Management incorporate fundraising standard operating
       procedures linked to the Peace Corps Manual to retain the relevant and appropriate
       fundraising tools and strategy developed by the contractor for use in future fundraising
       endeavors.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                       10
EXPENDITURES

Overall, the Peace Corps developed an effective process for verifying, approving, and
certifying that expenditures related to the 50 th Anniversary were legal and reasonable.
However, we identified the following weaknesses caused by a lack of guidance and review.

        2 of the 79 sampled vouchers inappropriately used 50th Anniversary funds.

        41 of 79 sampled expenditures were misclassified with an incorrect object class code or
        misclassified with the 50 th Anniversary sponsor code. In addition, travel vouchers
        contained errors in calculation and obligations were prepared after travel was
        completed.

        The agency did not adequately track food and other entertainment expenses to ensure
        agency compliance with laws and regulations.

Errors and misclassifications in expenditures hinder management’s ability to analyze data and
to have accurate, usable information of the total costs associated with the 50th Anniversary.

Background and Guidance
The Peace Corps established guidance and criteria for offices to use when conducting 50 th
Anniversary events to help ensure expenditures were appropriate, supported the goals of the 50th
program, and were in compliance with applicable laws and regulations. OGAP required all
RROs to obtain approval before making 50th Anniversary expenditures. Additionally, although
posts were not required to obtain OGAP approval as directors of management and operations
(DMOs) have the budgeting experience necessary to make appropriate expenditures, a significant
number of posts discussed their events with headquarters staff and obtained OGAP’s approval in
advance.

When invoices were submitted to OGAP for review, voucher examiners checked for accuracy
and completeness and flagged the invoice as 50th Anniversary-related for the financial
management officers' review. The financial management officers checked that invoices were
legal, proper, and correct.

The Peace Corps specifically authorized the purchase of food and t-shirts for the purpose of the
50th Anniversary commemoration. The agency provided specific instructions to RROs and posts
for these types of purchases because of the history of comptroller general decisions regarding the
use of appropriated funds for food and personal items.

        In May 2010, OGC issued a legal opinion for the Director stating that the use of
        appropriated funds for the purchase and distribution of t-shirts bearing the Peace Corps’
        name and logo to prospective applicants, trainees, Volunteers, donors, and others for the
        purposes of recruiting Volunteers, publicizing the activities of the Peace Corps, and
        raising gift funds for activities in furtherance of the Peace Corps Act was appropriate.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                 11
        Management authorized RROs and posts to use 50th Anniversary funds to purchase food
        for non-Volunteer/trainee attendees of events if the primary purpose for serving food was
        to facilitate a necessary agency function, provided that serving food would make a direct
        contribution to carrying out that function, and if the food was modest in cost and
        presentation. When vouchering, posts were required to provide a list of attendees if the
        event was closed to the general public.

Voucher Testing
We judgmentally selected a sample of 79 vouchers from the population of 3,919 total vouchers
allocated to the 50th project using the 50 th Anniversary “special purpose sponsor” code.3 We
selected sample items using professional judgment based on a variety of factors, including
amount and type of expenditure. Since sample items were selected judgmentally, the results of
our testing cannot be generalized to the population of 50 th Anniversary expenditures. We
reviewed the vouchers to determine whether expenses were legal, proper, and correct. We also
tested whether the vouchers fulfilled the purpose of the 50 th Anniversary and complied with the
agency’s policies. During our review we identified one voucher that was not a proper expense
and one that did not fulfill the mission of the 50th Anniversary.

        In May 2011, a post paid $409 for entrance fees and purchased t-shirts for Volunteers to
        run in a local marathon, for which the Volunteers were asked to raise $100 each for the
        post's Peace Corps Partnership Project country fund. The post coded these payments as
        50th Anniversary expenditures. According to OGAP's 50 th Anniversary guidance, 50th
        Anniversary funds could not be used for Peace Corps grant projects (for example, to pay
        for items to support those projects or to defer the community contributions to those
        projects). Further, staff is instructed not to solicit donations from Volunteers or ask them
        to solicit for donations on behalf of the Peace Corps. Therefore, we do not believe the
        cost was a proper expense.

        In June 2011, a post paid $1,650 to print copies of its annual report. The post coded these
        payments as 50th Anniversary expenditures. However, the post creates and prints the
        report each year, and the report is not specifically related to the goals of the 50th program.
        According to OGAP's 50 th Anniversary guidance, 50th Anniversary funds were
        appropriated funds given to posts to pay for events or activities that commemorated the
        Peace Corps’ 50 years of service. All 50th Anniversary events and any items that posts
        purchased needed to reflect the goals of the 50th program. Therefore, the costs should not
        have been allocated to the 50 th Anniversary.

RROs were required to obtain pre-approval from OGAP for their 50 th Anniversary expenses;
however, posts were not required to do so because management believed DMOs had the
experience necessary to perform such transactions. Requiring posts to be approved by OGAP for
expenses may have prevented these two issues from occurring. Without a pre-approval process,
the DMOs were at a greater risk of making errors or questionable purchases and being held liable
for the resulting costs.

3
 If an expenditure was not appropriately coded with the 50th Anniversary special purpose sponsor code, it would not
have been included in our 50th Anniversary expenditure population and not have been subject to our sample
selection. See appendix A: Objectives, Scope, and Methodology for further discussion on data limitations.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                 12
Coding and Other Errors
To track expenses and donations for the 50 th Anniversary, the Peace Corps established two
special-purpose sponsor codes, and most 50th Anniversary expenses were tracked using these
codes.4 According to the Peace Corps 2012 Fiscal Coding Handbook, the sponsor codes in
Odyssey (the Peace Corps' financial tracking and management system) define the activity related
to a specific budgeted program or support area. The 50th program expenses paid for with
appropriated funds were tracked by special purpose code 3103 (50th Anniversary – Appropriated
Funds) and 50th Anniversary expenses paid for with 50th Anniversary donations were tracked by
special purpose code 1014 (Private Sector Donations – the Peace Corps 50th Anniversary).

According to the Peace Corps 2012 Fiscal Coding Handbook, object class codes are used to
classify expenditures according to types of goods and services, such as personnel, travel, rent,
and supplies. In Odyssey, the Peace Corps has established its object class codes to comply with
Office of Management and Budget (OMB) reporting requirements. Based on our review of the
payment voucher sample, 41 out of 79 expenditures we sampled were misclassified with an
incorrect object class code or were misclassified with the 50 th Anniversary sponsor code. For
example:

        $6,614 in travel costs were misclassified with incorrect travel codes. Travel costs for
        some participants in the Smithsonian Folklife Festival were classified as international
        travel when they should have been classified as invitational travel.

        Eighteen expenses with a value of $33,581 were misclassified as “Other Services” when
        they should have been classified to other object class codes. Many expenditures for
        catering and event costs were classified as “Other Services” instead of the more
        appropriate object class code for “Entertainment/Representation” costs. Further, t-shirts
        were often coded as “Supplies” though the expense is more appropriately coded to
        recruitment or representation.

Management did not include in their 50th Anniversary expenditure guidance instructions on
classifying 50th Anniversary expenditures with appropriate object class codes and sponsor codes.
As a result, many DMOs did not know the correct object class code to use or were unfamiliar
with less frequently used codes, resulting in the use of the generic codes “Other Services” and
“Supplies.” It is necessary for managers to use accurate object class codes in the financial system
to control the use of resources according to the purposes provided for by the budget authority.
Ensuring the accuracy and reliability of financial information is necessary to make informed
decisions about agency resources. Misclassified expenditures hinder management’s ability to
analyze expenditure data in order to have accurate, usable information of the actual costs
associated with the 50th Anniversary.

We also noted some errors that were not specific to 50 th Anniversary events. These errors
included travel voucher miscalculations and travel voucher obligations occurring after travel was
completed.
4
 Some 50th Anniversary expenses, specifically the contracts and agreements, were coded with the 0001 “General
Sponsor” code because they were put into place before the two 50th Anniversary special sponsor codes were created.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                 13
Food and other Expenses
The 50th Anniversary events were logically connected to 50 th Anniversary objectives. However,
we noted many events that involved entertainment expenses including food, music, and event
space. As a general rule appropriations may not be used to pay for entertainment. While the
comptroller general has not precisely defined the term “entertainment,” according to the
Principles of Federal Appropriations Law (GAO-04-261SP), entertainment includes “food and
drink, either as formal meals or as snacks or refreshments; receptions, banquets, and the like;
music, live or recorded; live artistic performances; and recreational facilities.” There are noted
exceptions based on laws and legal opinions that contain specific rules, such as employee
training, meetings and conferences, and staff award ceremonies. It is also recognized that the
agency may have legitimate need for such items. For this reason, the foreign service agencies are
given authority to use appropriated funds for entertaining foreign officials and may have
legislation authorizing entertainment or representation funds.

The Peace Corps Act section 2514 states that entertainment may not “exceed $5,000 in any fiscal
year except as may otherwise be provided in an appropriation or other Act.” The Peace Corps’
annual appropriations further limit the amount of entertainment funds to not exceed $4,000.5
However, the Peace Corps' appropriations did not specifically establish a limit on representation
funds.

Representational Funds. The Foreign Service Act of 1980 as amended (22 U.S.C. 4085 section
905) authorizes the “Secretary” to provide for official receptions and pay entertainment and
representational expenses. The Peace Corps cites this authority in Peace Corps Manual section
(MS) 724, “Representational Allowances,” which states:

           Representation allowances are intended to cover allowable items of expenditure primarily by Country
           Directors, whose official positions entail responsibility for establishing and maintaining relationships of
           value to the United States in foreign countries.

Posts reported spending approximately $73,000 of representational allowances to fund 50 th
Anniversary events. However, this amount was understated as we determined that 11 of 78
sampled expenditures improperly classified overseas representational expenses as “other
services” and “supplies.” These errors were identified in the “Coding and Other Errors” section
of this report. For example, a 50th Anniversary event was held in Ecuador in March 2011 with an
estimated 265 guests, including the President and Vice President of Ecuador, representatives of
nongovernmental organizations, embassy officials, Peace Corps staff members, Volunteers, and
RPCVs. Actual costs totaled $8,430 for catering, sound and lighting costs, and taxes. The
expenditure was paid for with appropriated funds and classified as “other services.” The OGAP
financial management officer who reviewed the payment voucher did not instruct the post to
change the code to representational funds. Because of the explicit authority for representational
funds, posts must ensure any expense related to that authority is properly coded for tracking and
monitoring purposes.



5
    The Consolidated Appropriations Act, 2010, Public Law 111-117


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                          14
Events within the United States. The Peace Corps used 50 th Anniversary funds to pay for food-
related expenses at events within the U.S. Peace Corps Manual section (MS) 729, “Food and
Refreshments,” establishes the agency’s policy for the using appropriated funds to purchase food
and refreshments to be served to Volunteers, trainees, staff and other attendees at Peace Corps
events. The policy provides specific situations in which food is permissible (based on laws and
legal decisions) and the use of entertainment funds is not required, provided:

         (i) the primary purpose of serving food and refreshments to those attendees at that event is to facilitate a
         necessary agency function, and (ii) serving food and refreshments to those attendees at that event would
         make a direct contribution to carrying out that function.
         Food and refreshments served at Peace Corps events must be modest in cost and presentation

We reviewed a sample of vouchers that included food and other entertainment expenses within
the U.S. to determine whether the costs were proper and the funding was appropriate.

Kennedy Center Concert. In September 2011 the Peace Corps held a concert at the John F.
Kennedy Center for the Performing Arts that attracted an audience of more than 2,000. The
concert featured Youssou N’Dour, a celebrated African singer and percussionist. The Peace
Corps also used the concert as an opportunity to promote awareness of Malaria No More (a
nonprofit, nongovernmental organization) and the Youssou N’Dour Foundation. Costs for the
event were $25,000, and the Peace Corps used donations from the 50 th Anniversary Fund to pay
for this event. Although concerts are defined by the Government Accountability Office (GAO) as
entertainment expenses, according to the GAO Principles of Federal Appropriation Law, “If an
agency is authorized to accept gifts, the funds may be used to augment a 'not to exceed' earmark
applicable to that purpose.”6 Therefore, the agency appropriately used donations to pay for all of
the expenses related to this event.

Union Station Event. The Peace Corps hosted a private event at Union Station in Washington,
D.C. to welcome individuals from around the world who participated in the Smithsonian Folklife
Festival. This event was not open to the general public. There were approximately 200 attendees,
including mostly Folklife Festival participants (100 persons), as well as ambassadors from the 16
countries represented at the Festival, representatives from Congress, the White House, the State
Department, USAID, the Smithsonian Institution, Peace Corps senior and regional staff, country
desk officers, and members of the Shriver family. The budget for the event was $12,500. Actual
costs of the Union Station event were approximately $11,211 and included the following
expenses: food, service, and equipment: $8,642; facilities rental: $1,500; audio equipment: $821;
and $211 in bank fees. The agency appropriately used donations to pay for all of the expenses
related to this event.

John F. Kennedy Service Awards. The Peace Corps presents the John F. Kennedy Service
Awards once every five years to six Americans who have given outstanding service to the Peace
Corps, both at home and abroad. In commemoration of the Peace Corps' 50 th Anniversary, Peace
Corps Director Aaron S. Williams and prominent Peace Corps supporter Caroline Kennedy
presented the 2011 John F. Kennedy Service Awards at the John F. Kennedy Presidential Library
and Museum in Boston on March 5, 2011. The event's 350 attendees included Peace Corps

6
    Comptroller General decision B-52501, Nov. 9, 1945.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                         15
officials and staff, former award winners, RPCVs, and others. The total cost of $31,404 included
$6,260 for catering, $11,525 for lighting and sound, $830 for framing, and $12,789 for travel
costs. The Peace Corps used appropriated funds to pay for the event. MS 729 authorizes the use
of appropriated funds for staff award and recognition ceremonies based on the authority of the
Government Employees' Incentive Awards Act.

Department of State Event/Lifetime Achievement Award for Sargent Shriver Event. In March
2011 the Peace Corps hosted a non-public event for the diplomatic community at the Department
of State to recognize the unique role host country governments have played in the success of the
Peace Corps as well as an opportunity to honor R. Sargent Shriver’s legacy of public service by
presenting him with a posthumous lifetime achievement award. Approximately 285 guests
attended, with most of the guests being Peace Corps headquarters staff members (106),
Department of State staff members (58), members of the diplomatic community (46), and
notable RPCVs (41). The budget for this event was $8,000. However, actual costs came to
$10,848, which included: Department of State room rental fee: $5,000; catering: $3,220; security
costs: $2,008; and printing: $620. Although a significant number of State Department employees
and members of the diplomatic community attended the event, the State Department did not
share any of the costs other than the coffee service.

The 50th team intended to work with OGC and OPSI to secure possible donations to cover the
costs, but none were specifically raised for this event. The agency used appropriated funds to pay
for the expenses, even though there were previously-collected donated funds available. The
agency justified using appropriated funds stating that the events were a “3rd goal event” to
promote a better understanding of other people on the part of the American people. Although the
cost of food per person was modest (approximately $11), we question the use of appropriated
funds to pay for food when over 50 percent of the participants were government employees and
the other American citizens were members of the Kennedy family and RPCVs already familiar
with the Peace Corps. The members of the diplomatic community were not American citizens
and represented countries where the Peace Corps was already present. These costs were also not
allocated to the “Entertainment/Representation” object class code. Therefore, we believe the
$10,848, particularly $3,220 in catering costs, was not a proper use of appropriated funds.

While Peace Corps policy differentiates entertainment from representation based on the location
and purpose of the expense, the Peace Corps' object class codes combine entertainment and
representation. Further, the Peace Corps had established a sponsor code for entertainment funds
to control entertainment expenses. However, the events of the 50 th Anniversary were charged to
the 50th Anniversary sponsor code, and therefore not tracked in the entertainment fund. As a
result, the agency did not accurately track entertainment expenses and representation expenses
and risks exceeding the statutory entertainment expense limit.

Travel Costs
During our review of 50 th Anniversary expenditures, we noted that 50th Anniversary travel costs
exceeded the budgeted amount of $145,000. Actual travel costs for all types of travel totaled
$198,781. To provide a better understanding of 50 th Anniversary travel, we have reported travel
costs, by traveler and venue, for major 50th Anniversary events in Appendix D and present a
summary of the information provided by OGAP in Chart 3.



Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                 16
                            Chart 3. 50th Anniversary Travel Expenses

                      Total Travel Amount Spent: $198,781
                                    Invitational
                                      Travel,
                                    $36,026.00
                 Staff Conference                                                 International
                Travel, $2,772.00                                                    Travel,
                                                                                   $69,715.62




                Peace Corps
               Volunteer and
                Peace Corps
                 Trainee In-
               Country Travel,
                $25,963.52


                                                   Staff In-Country
                                                        Travel,
                                                     $64,304.32

    We recommend:

    4. That the Office of the Chief Financial Officer establish and enforce formal guidelines and
       strengthen training procedures to ensure that all disbursements are allocated to
       appropriate object class codes. When issuing expenditure guidance for special events,
       management should also include guidance on how to properly code unfamiliar or seldom-
       used transactions.

    5. That the Office of the Chief Financial Officer develop a process to monitor representation
       expenses to ensure expenses are properly coded and that the overseas posts are in
       compliance with Peace Corps policies.

    6. That the Office of the Chief Financial Officer allocate the 50 th Anniversary donations to
       expenses related to the 50 th Anniversary including catering costs for the events within the
       United States.

    7. That the Office of the Chief Financial Officer determine whether donated funds were
       sufficient to cover all entertainment expenses in excess of the appropriation law
       limitations, and take appropriate action based on the results of that determination.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                   17
CONTRACTS AND AGREEMENTS

The three contracts, the cooperative agreement, and the interagency agreement put into place
to support the 50th Anniversary commemorations appeared to be awarded and administered
properly. However, we identified the following areas of improvement:

        Better communication and coordination among the 50th team and the offices
        responsible for working with the contractors could have helped the success of the
        fundraising and earned media contracts.

        The use of a cooperative agreement was an appropriate procurement vehicle. However,
        the Peace Corps could improve transparency in awarding such instruments by
        developing policies and procedures for cooperative agreements.

The 50th team managed three contracts designed to provide the support necessary to execute the
many events and activities held during the anniversary year. Management authorized these firms
to be brought on because they felt the agency did not have either the capacity or the specific
expertise required to implement these tasks internally. The three contracts procured the following
services: fundraising, earned media, and speechwriting.

In addition to these three contracts, management also authorized a cooperative agreement with
the National Peace Corps Association (NPCA) and an interagency agreement with the
Smithsonian Institution. See Table 2 for a breakdown of the contracts and agreements with
associated costs.

                             Table 2. 50th Anniversary Procurement Costs
  Contract or Agreement Purpose                   Contractor or Awardee                  Cost
Folklife Festival                            Smithsonian Institution                  $895,236
50th Anniversary Calendar and                National Peace Corps                     $150,059
Around the World Expos                       Association
Fundraising                                  Campbell & Co.                           $133,268
Speechwriting                                West Wing Writers                        $104,999
Earned Media                                 Burson-Marsteller                          $69,125
                                                                                  (at stop work order)
TOTAL                                                                                $1,352,687
  Source: OIG analysis based on data provided by OGAP


Fundraising Contract
Campbell & Co. provided the Peace Corps with a number of contract deliverables, such as the
50th Anniversary case statement (used to test whether the 50th Anniversary fundraising message
worked on donors), a corporate donor recognition plan, and prospect lists. Campbell & Co. also
provided major deliverables such as the capital campaign strategy and capacity building strategy.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                          18
We reviewed the fundraising contract with Campbell & Co. and determined that it was properly
awarded. We determined that the contract was properly authorized, had sound selection criteria,
and was awarded based on the selection criteria. In total, the Peace Corps spent $133,268 on the
fundraising contract. Although the 50th program specialist was the COTR overseeing the
fundraising contract, this contract relied on OPSI to perform fundraising activities. We discuss
the Peace Corps' limitations on using this contract to raise funds and build capacity in the
“Fundraising” finding above.

Earned Media Contract
In September 2010, the Peace Corps contracted with Burson-Marsteller LLC, a media relations
firm, to provide strategic communications and earned media services in support of the agency’s
50th program. The contract's objectives were to support the Office of Communications and the
50th team with external outreach, implement proactive press relations and earned media outreach
plan, and evaluate the effectiveness of its media strategy and tactics.

We reviewed the earned media contract with Burson-Marsteller and determined that it was
properly awarded. We determined that the contract was properly authorized, had sound selection
criteria, and was awarded based on the selection criteria.

The total amount of the contract award was $151,832; actual costs totaled $69,125. Effective
April 2011, the Peace Corps issued a stop work order for the contract, stating that:

        . . . The agency was not able to effectively utilize the services provided through this contract. These reasons
        include but are not limited to the several unexpected issues that were not anticipated at the time of the
        award, such as the media coverage of safety and security concerns, changing the timing of events and the
        launch of the 50th Anniversary, the strategic needs of the agency, etc.

The 50th team's original solicitation for this contract stated that the Peace Corps needed a
contractor to support earned media efforts surrounding the 50 th Anniversary. The 50th
Anniversary plan relied on successful coordinated public relations efforts by the Office of
Communications and the contractor. Although the 50th program specialist was the COTR
overseeing the earned media contract, this contract relied on the Office of Communications to
ensure success. After the contract with Burson-Marsteller was cancelled, the 50th team and the
COTR determined that the agency was able to meet the remaining objectives of the contract
through in-house support from the Office of Communications. We believe that better
communication and coordination between the 50th team and the Office of Communications could
have improved the effectiveness of the strategic communications and earned media services (see
the “Managing the 50th Anniversary Program” finding above), but that the initial need for and
subsequent stop work order of the contract was appropriate given the circumstances.

Speechwriting Contract
In September 2010, the Peace Corps contracted with the speechwriting firm West Wing Writers
to assist with the implementation of the Peace Corps' communications goals surrounding the 50th
Anniversary. This included an assortment of speeches given by the Peace Corps Director to a
variety of audiences in a range of venues during the 50 th Anniversary events, and written
material for senior leadership, regional offices and posts worldwide to use during 50th
Anniversary events.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                     19
Speechwriting is considered a unique and specialized skill, and the Peace Corps did not have a
speechwriter on staff to provide such work. Management believed it was critical to the success of
50th Anniversary events that effective speeches were given to convey appropriate information.

We reviewed the speechwriting contract with West Wing Writers and determined that it was
properly awarded. We determined the contract was properly authorized, had sound selection
criteria, and was awarded based on the selection criteria. The Peace Corps extended the contract
to obtain additional speechwriting services to support the 50 th Anniversary. The total contract
value was $105,000; actual costs were $104,999.

NPCA Cooperative Agreement
In September 2010 the Peace Corps entered into a noncompetitive cooperative agreement with
the NPCA to develop a calendar website for all events related to the 50 th Anniversary beginning
in 2010, and to organize “Around the World Expos” in each of the nine U.S. regions between
January 2011 and September 2011. The total value of the agreement was $398,750, with the 50 th
Anniversary-related work (calendar and expos) valued at $158,750.7

We reviewed the distinction between cooperative agreements and contracts and determined that a
cooperative agreement was the appropriate procurement instrument to be used. The Federal
Grant and Cooperative Agreement Act of 1977 (31 USC 6303) states that:

        An executive agency shall use a cooperative agreement as the legal instrument reflecting a relationship
        between the United States Government and a State, a local government, or other recipient when –

        (1) the principal purpose of the relationship is to transfer a thing of value to the State, local government, or
            other recipient to carry out a public purpose of support or stimulation authorized by a law of the United
            States instead of acquiring (by purchase, lease, or barter) property or services for the direct benefit or
            use of the United States Government; and
        (2) substantial involvement is expected between the executive agency and the State, local government, or
            other recipient when carrying out the activity contemplated in the agreement.

The Federal Grant and Cooperative Agreement Act of 1977 expressly states that one of the
purposes of the Act is to encourage competition, where deemed appropriate, in the award of
cooperative agreements. OMB Circular No. A-110 encourages cooperative agreements to be
conducted in a manner to provide, to the maximum extent practical, open and free competition.
Further, the Peace Corps Act (Section 2517) gives the Director broad authority to support and
assist RPCV groups:
        In order to further the goal of the Peace Corps, as set forth in section 2 of this Act [22 U.S.C. 2501],
        relating to the promotion of a better understanding of other peoples on the part of the American people, the
        Director, utilizing the authorities under section 10(a) [22 U.S.C. 2509(a)(1)] of this Act and other
        provisions of law, shall, as appropriate, encourage, facilitate, and assist activities carried out by former
        volunteers in furtherance of such goal and the efforts of agencies, organizations, and other individuals to
        support or assist in former volunteers' carrying out such activities.


7
 This cooperative agreement also included program objectives related to the Speaker’s Match program and regional
RPCV outreach events unrelated to the 50th Anniversary.



Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                      20
Management stated that NPCA was selected to provide the services under the cooperative
agreement because they viewed NPCA as the umbrella organization to all RPCV groups. Peace
Corps management stated that they had considered other RPCV groups for this agreement but
believed that NPCA would have the access to the highest number of returned Volunteers.
However, management did not provide any documentation to support this or the decision to
award the agreement to NPCA.

We reviewed the award process for this cooperative agreement and found that management did
not document their sole source justification for the award. The Peace Corps did not have policies
or guidance for the use of cooperative agreements and what justification and documentation was
necessary for cooperative agreements, specifically when competition was required. Additionally,
the contracting officer for the agreement designated a COTR to administer certain aspects of this
agreement. The Peace Corps staff member designated as COTR did not have a COTR
certification on file and left the agency before the completion of the agreement.

The total amount paid as of the date of this report for the 50th Anniversary calendar and Around
the World Expos under the cooperative agreement is approximately $150,059.

50th Anniversary calendar. NPCA developed and managed a public calendar of all events related
to the 50th Anniversary posted on an Internet site independent of NPCA’s main site
(www.peacecorps50.org, now inactive). The Peace Corps required that the calendar be
searchable by location, date, topic, and event host as well as have a rich media integration of
pictures, audio, and video.

As late as June 2011, Peace Corps staff formally expressed concerns that the calendar site was
not meeting the terms outlined in the agreement; specifically, that the calendar did not have a
rich media integration of pictures, audio, and video. During the fieldwork conducted for this
audit we were unable to access and review the functionality of the calendar because the Peace
Corps instructed NPCA to take the 50 th Anniversary calendar offline in accordance with the
terms of the agreement. As a result, we were unable to determine whether the functional
capabilities of the calendar met the specifications of the cooperative agreement.
We judgmentally selected a sample of eight charges billed for the calendar costs based on
expenditure type and amount for further review. We found that charges were supported by
invoices and receipts and that all of the costs are allowable under OMB A-122, “Cost Principles
for Non-Profit Organizations.” 8 Based on this review, we are fairly confident that the sampled
charges are reasonable, allowable, and allocable. Because sample items were selected
judgmentally, the results of our testing cannot be generalized to all of the charges billed by
NPCA under the agreement.

Around the World Expos. The 50th Anniversary Around the World Expos were designed to serve
as a platform to support the Peace Corps' mission and legacy by honoring its past, demonstrating
its effectiveness, and inspiring the next generation of Volunteers through education and
engagement. The “Around the World” theme was designed as an opportunity for the general
public and RPCVs to commemorate places Peace Corps Volunteers have served. Attendees were

8
 OMB A-122 establishes principles for determining costs of grants, contracts and other agreements with non-profit
organizations.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                21
able to hear the first-hand experiences of RPCVs who served in many locations around the
world. In addition, Peace Corps staff members were on hand to present and to answer questions
about the agency's various recruitment and third goal initiatives.

Smithsonian Folklife Festival Interagency Agreement
The Smithsonian Institution held the 2011 Smithsonian Folklife Festival on the National Mall in
June and July of 2011. The Festival attracted an estimated 1,083,686 visitors during its ten days
of operation and was attended by members of Congress, tourists from around the world,
dignitaries, and policymakers. The Smithsonian Folklife Festival program, “The Peace Corps at
Fifty Years,” was intended to increase public understanding and appreciation of the contributions
and accomplishments achieved by Peace Corps Volunteers, staff members, and host countries
over the last five decades.

Folklife Festival Costs. The Smithsonian Institution and the Peace Corps both assumed specific
costs for the “Peace Corps at Fifty Years” program, outlined in an interagency agreement. The
Peace Corps’ costs under the agreement totaled $895,236, which included a 4.2 percent
administrative overhead cost. Under the terms of the agreement, funds were incrementally
prepaid to Smithsonian, and any unspent funds were to be redirected to mutually agreed-upon
projects. However, all funds paid to Smithsonian were expended.

The Peace Corps directly paid for an additional $21,742 in travel expenses for the Festival
participants outside of the interagency agreement. When the budget was finalized in June 2010,
the Peace Corps had not finalized what countries would be participating, and only had a figure of
how many participants would be needed. According to the Peace Corps staff members who
worked on the Festival, by the time travel arrangements were finalized in early 2011, a rise in
fuel costs had caused ticket prices to increase, and there were unanticipated visa fees. When
management became aware of these additional costs, they approached the Smithsonian to revise
the agreement; however, they were informed that if it were revised, the agreement would
increase the administrative overhead charge from 4.2 percent to 6.5 percent. The Peace Corps
made the decision to pay for the additional costs directly because management anticipated that
this would be the most cost-and-time-effective option. The Peace Corps' actual costs for the
Folklife Festival totaled $916,978.

      We recommend:

        8. That the Office of Acquisitions and Contract Management develop policies and
           procedures for awarding cooperative agreements, including appropriate uses,
           competition, and required documentation.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                  22
                           QUESTIONED COSTS AND
                        FUNDS TO BE PUT TO BETTER USE
We did not identify any funds to be put to better use. We identified $10,848 in questioned costs
during the course of the audit. Questioned costs are defined as a cost that is questioned by OIG
because of:

        an alleged violation of provision of a law, regulation, contract, grant, cooperative
        agreement, or other agreement or document governing the expenditure of funds;
        a finding that, at the time of the audit, such cost is not supported by adequate
        documentation; or
        a finding that the expenditure of funds for the intended purpose is unnecessary or
        unreasonable.

                                          Questioned Costs
    Recommendation
                                                  Description                         Amount
        number
          6               Cost of an event in the United States                         $10,848




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                   23
                            LIST OF RECOMMENDATIONS
We recommend:

1. That the Office of the Director retain documentation of the events, including cost
   information, to use when planning future recruiting and awareness campaigns.

2. That the Office of the Director establish the agency’s strategy on fundraising. If the Director
   decides to include the use of fundraising and donations in the agency's operations, then
   develop appropriate goals and provide the necessary resources, such as staffing and a donor
   relations database, needed to accomplish the goals.

3. That Office of Gifts and Grants Management incorporate fundraising standard operating
   procedures linked to the Peace Corps Manual to retain the relevant and appropriate
   fundraising tools and strategy developed by the contractor for use in future fundraising
   endeavors.

4. That the Office of the Chief Financial Officer establish and enforce formal guidelines and
   strengthen training procedures to ensure that all disbursements are allocated to appropriate
   object class codes. When issuing expenditure guidance for special events, management
   should also include guidance on how to properly code unfamiliar or seldom-used
   transactions.

5. That the Office of the Chief Financial Officer develop a process to monitor representation
   expenses to ensure expenses are properly coded and that the overseas posts are in compliance
   with Peace Corps policies.

6. That the Office of the Chief Financial Officer allocate the 50 th Anniversary donations to
   expenses related to the 50th Anniversary including catering costs for the events within the
   United States.

7. That the Office of the Chief Financial Officer determine whether donated funds were
   sufficient to cover all entertainment expenses in excess of the appropriation law limitations,
   and take appropriate action based on the results of that determination.

8. That the Office of Acquisitions and Contract Management develop policies and procedures
   for awarding cooperative agreements, including appropriate uses, competition, and required
   documentation.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                     24
APPENDIX A

                  OBJECTIVE, SCOPE, AND METHODOLOGY
The audit was initially announced in July 2011 and audit work was performed through May
2012. The primary objective of this audit was to evaluate the agency’s management of the 50 th
Anniversary commemoration to determine if:

        The program events and activities were in compliance with applicable laws and
        regulations;
        The program was adequately planned and administered to achieve agency objectives; and
        The expenditures (domestic and international) were legitimate and properly authorized.

In addition, this audit determined an estimate of total costs for the 50 th Anniversary
commemoration.

Our audit conclusions are based on information from three sources: (1) document and data
analysis, (2) interviews, and (3) direct observation. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We used the following criteria to develop our findings and conclusions:

        The Peace Corps Act
        The Peace Corps Manual
        Appropriation Laws
        GAO Principles of Federal Appropriations Law (Red Book)
        The 50th Anniversary Program Charter and 50th Anniversary Guidance
        OMB Circular A-123, “Management’s Responsibility for Internal Control”
        Government Auditing Standards (issued By GAO)

Sample Testing
For our testing of payment vouchers, we judgmentally selected a sample of 79 vouchers from the
3,919 total vouchers allocated to the 50th program using the 50th Anniversary special purpose
sponsor code. We selected sample items using professional judgment based on a variety of
factors, including the amount and type of expenditure. Since sample items were selected
judgmentally, the results of our testing cannot be generalized to the population of 50 th
Anniversary expenditures.

For our testing of reimbursable charges billed under the cooperative agreement with NPCA, we
obtained and reviewed a listing of all charges billed for the 50 th Anniversary calendar and the
Around the World Expos. We stratified the data by contracts and sub-sampled those expenses.
We used our professional judgment to select a sample of eight charges of calendar costs based on
expenditure type and amount for further review. Since sample items were selected judgmentally,


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                  25
APPENDIX A

the results of our testing cannot be generalized to all of the charges billed by NPCA under the
agreement.

Data Limitations
In general, the data OIG requested was provided in a timely and complete manner by agency
personnel, who also assisted OIG throughout the evaluation in answering questions about the
data.

The data used in this audit to determine 50th Anniversary expenditures was compiled from
expenditures coded with the 50 th Anniversary sponsor code (3103) queried from the Odyssey
financial system. If an expenditure was related to the 50th program but not coded with the
appropriate sponsor code, then our data would not include such transactions. Conversely, if
transactions were inappropriately coded as 50 th Anniversary program transactions, as were the
two transactions we identified above, then they would be included in our data.

Additionally, we identified and reported estimates of the actual costs of major events and
activities. The expenses were not identified by the event or the activity with which they were
associated in the expenditure data, and the 50th team did not track event expenses in real time, so
there may have been other significant events that we did not specifically report on. Further, a
significant amount of expenses were paid for using purchase cards. For these expenses, the
purchase card company is the vendor, and therefore we were unable to identify specific event
expenses within the expenditure universe database. In instances where we could not use other
information to identify the payment voucher and actual amount paid, we used expense
information provided by the 50th team staff.

Limited Procurement Reviews
When reviewing the contracts, cooperative agreement, and interagency agreement, we performed
a limited scope review of major procurement actions. We did not perform a contract file review.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                   26
APPENDIX B

                                    LIST OF ACRONYMS

                 COTR        Contracting Officer’s Technical Representative
                 DMO         Director of Management and Operations
                 FAR         Federal Acquisition Regulation
                 FY          Fiscal Year
                 GAO         Government Accountability Office
                 HRM         Human Resource Management
                 MI&E        Meals and Incidental Expenses
                 MS          Peace Corps Manual section
                 NPCA        National Peace Corps Association
                 OGAP        Office of Global Accounts Payable
                 OGC         Office of General Counsel
                 OIG         Office of Inspector General
                 OMB         Office of Management and Budget
                 OPSI        Office of Private Sector Initiatives
                 RPCV        Returned Peace Corps Volunteer
                 RRO         Regional Recruiting Office
                 USAID       U.S. Agency for International Development




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   27
APPENDIX C

                                50TH ANNIVERSARY COSTS
                           Comparison of Budgeted to Actual Costs
                                                                      Budgeted        Estimated
                                Description
                                                                        Cost         Actual Cost
         Domestic Travel                                                   $45,000        $57,359
         Domestic Events                                                  $230,000       $330,738
         RRO Events                                                       $135,000
         Publishing/Printing/IT/Supplies                                  $175,700
                                                  Total Domestic:         $585,700       $388,097
         International Travel                                             $100,000       $119,681
         Post Events                                                      $500,000       $302,629
                                               Total International:       $600,000       $444,052
         Staffing - 2009
            Expert Consultant - Reunion Events (Director's Office)
            Project Assistant (OPSI)
         Staffing - 2010
            Expert Consultant – 50th Strategy (Director's Office)         $145,126
            Project Assistant (OPSI)
         Staffing - 2010 – 50th Anniversary Office                        $726,089
            50th Anniversary Director (new hire)
            Project Manager (Communications-detailed)
            Project Manager (OPSI-detailed)
            Administrative Assistant (new hire)
         Additional Support Staff                                         $380,814
            Historian (FP-5)
            Research Assistant (FP-7)
            Contracts Assistant (FP-7)
                 Total Staffing                                                         $1,069,113
         Additional OPSI Staff (based on estimated time allocated
           to the 50th program)                                                           $364,445
                                                                                         Unable to
         Additional Communications Staff                                                 Determine
                                        Total Labor - Staffing:         $1,252,029      $1,433,558
         Earned Media                                                     $150,000         $69,125
         Fundraising                                                      $150,000        $133,269
         Speechwriting                                                    $100,000        $104,999
         Event Management Services                                       $100,000             -
         NPCA                                                                 -           $150,060
         Smithsonian Folklife Festival                                    $895,136        $916,978
                                              Total Contracts:          $1,395,136      $1,352,689

                                    Total Paid with Donations                           $105,972

                                                        TOTAL:         $3,832,865      $3,724,368
        Source: OIG analysis of expenditure data provided by OGAP



Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                      28
APPENDIX C


                             50th Anniversary Expenditures
                             Total Expenditures: $3,724,368

                              Expenses Paid with   Domestic Travel
                                  Donations           $57,359          Domestic Events
                                   $105,972             1%                $330,738
                                     3%                                     9%
      Smithsonian Folklife                                                         International Travel
           Festival                                                                      $119,681
           $916,978                                                                        3%
             25%
                                                                                        Post Events
                                                                                         $302,629
                                                                                            8%




   NPCA Cooperative
      Agreement
       $150,060
          4%


     Speechwriting
       Contract
       $104,999
          3%
   Fundraising Contract                                                              50th Team Staffing
        $133,269                                                                         $1,069,113
           3%                                                                               29%

              Earned Media
                Contract         OPSI Staffing
                 $69,125          $364,445
                   2%               10%


Source: OIG analysis of expenditure data provided by OGAP




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                           29
APPENDIX D

                          MAJOR TRAVEL COSTS, BY EVENT
We estimated the costs of the following 50th Anniversary events that had a significant number of
travel participants associated with them.

      Date               Event              Event Description        Location     Number       Estimated
                                                                                     of       Travel Costs
                                                                                  Travelers    (airfare +
                                                                                                MI&E9)
October          50 Years of the         Peace Corps Director       Boston, MA       6         $4,640
12, 2010         Peace Corps:            Aaron S. Williams
                 Answering President     commemorated the 50th
                 Kennedy's Call to       Anniversary by
                 Service                 participating in a panel
                                         discussion at Harvard
                                         University.
October          National                Director Williams and      Ann Arbor,       8         $8,129
13-16,           Symposium: The          other Peace Corps          MI
2010             Future of               notables joined the
                 International Service   University of Michigan
                                         in commemorating the
                                         1960 campaign speech
                                         by then-Sen. John F.
                                         Kennedy, which led to
                                         the agency's creation.
March 5,         Kennedy Service         Held at John F.            Boston, MA       14       $12,789
2011             Awards Ceremony         Kennedy Presidential
                 and Commemoration       Library and Museum
March 17,        The Early Years of      A panel discussion at      Washington,      3           $780
2011             the Peace Corps         the National Archives      D.C.
                                         in Washington, D.C.
                                         Panelists discussed the
                                         creation and early
                                         history of the Peace
                                         Corps.
April 1,         Bringing Service        Director Williams and      New York,        3         $2,017
2011             Home                    other leaders of service   NY
                                         organizations
                                         participated in Peace
                                         Corps' 50th Anniversary
                                         events at Teachers
                                         College-Columbia
                                         University. Teachers
                                         College is the founding
                                         member of Peace Corps'
                                         Paul D. Coverdell

9
    Meals and Incidental Expenses


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                         30
APPENDIX D

                                          Fellows Program.
May 18,         Lillian Carter            This ceremony                  Atlanta, GA          3          $1,629
2011            Awards10                  recognized an
                                          outstanding senior
                                          returned Peace Corps
                                          Volunteer at The Carter
                                          Center in Atlanta, Ga.
June 16,        PC/Tanzania 50th          The post                       Dar es               3         $28,909
2011            Anniversary               commemorated the 50th          Salem,
                Commemoration11           Anniversary with a visit       Tanzania
                                          from Director Williams
                                          who, along
                                          with staff, Volunteers,
                                          and other special
                                          guests, attended a
                                          reception at the U.S.
                                          Embassy.
September       Peace Corps               Peace Corps staff              New York,            5          $4,465
6, 2011         Baseball Night at         members and RPCVs              NY
                Yankee Stadium            raised awareness of the
                                          50th Anniversary during
                                          a baseball game at
                                          Yankee Stadium .
November        USAID/PC 50th             An event in the                Manila,              4         $26,963
1, 2011         Anniversary High-         Philippines, one of the        Philippines
                level Reception and       Peace Corps’ first host
                50th Anniversary          countries, to
                Commemoration at          commemorate the
                Mall of Asia              efforts of Volunteers,
                                          staff, and citizens.
December        Donor Cultivation         A private fundraising          New York,            3            $811
5, 2011         Event12                   effort targeted toward         NY
                                          individual donors.




10
   The John F. Kennedy awards occur on a five year basis and the Lillian Carter awards occur on a two year basis.
These occurrences of these events were included in the 50th Anniversary commemorations.
11
   We reviewed the Director’s travel voucher in the sample of payment vouchers we reviewed. We noted that the
Director traveled business class for airfare expenses and reviewed the justification documentation for business class
travel. We found the business class travel for this trip to be justified in accordance with statutory requirements and
the Peace Corps policy.
12
   According to the Director of OPSI, donor cultivation events were scheduled with previously planned events since
travel funds were limited.


Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                                     31
APPENDIX E

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   32
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   33
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   34
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   35
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   36
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   37
APPENDIX E




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program   38
APPENDIX F



                                       OIG COMMENTS
Of the eight recommendations made in our report, Peace Corps management concurred with all
eight recommendations. Management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. In our opinion Peace Corps
management’s comments were generally responsive. Management’s corrective actions are
ongoing and as a result none of the eight recommendations can be closed at this time.

We wish to note that when we close recommendations, we are not certifying that the agency has
taken these actions, nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact. The
recommendations will remain open pending confirmation that sufficient evidence has been
received that appropriate corrective actions have been taken to remediate the deficient conditions
found.

Comments to the Additional Information
In their response, management provided additional information and requested clarification on
two specific areas. We appreciate the agency providing clarification on the final funding levels,
travel costs, and staff time policies. However, we disagree with some of the additional comments
provided by the agency.

We wish to clarify that the purpose of our audit was not to provide the agency with a historical
document for the agency to use to plan future events. The purpose of our audit was to determine
whether the Peace Corps’ 50th team was effective in formulating and executing an appropriate
budget; complied with applicable federal laws, regulations, and Peace Corps policy; and had
sufficient internal control over expenditures. In addition, this audit determined an estimate of
total costs for the 50th Anniversary commemoration because the agency had not provided the
total cost of the program. Notably, the agency’s internal report to the Director for the 50th
Anniversary commemoration did not include any actual cost data for the program.

We agree with the agency that the 50 th Anniversary office was established and funded through a
series of requests for agency resources and not through the formal process of establishing an
office, its mission, objectives, and functions defined through the Peace Corps Manual and
provided funding for through the agency’s regular operational budget. This presented a series of
challenges during our audit.

The agency notes that the Office of the Chief Financial Officer and the administrative officer
tracked expenses. We do not disagree. While the data may have been available, our report
identifies the lack of coordination and communication between the 50 th team and other offices as
a weakness. The 50 th team was not utilizing cost data to monitor spending against the plan that it
had developed and could not provide us with the total accounting of costs for the program.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                  39
APPENDIX F

Because the 50th team did not use the same cost categories in their budget as the agency uses for
expenditure data (i.e., object class codes), this impacted the way information was presented in
Appendix C. The agency also questioned whether certain categories were counted twice in the
charts of Appendix C. We used the agency’s object class codes and the 50th Anniversary sponsor
code to categorize the expenses and therefore did not double count expenses. However, our
findings did identify miscoding as an issue. Our charts used the agency’s data and would include
similar miscoding. We have considered the agency’s comments and clarified some of the
graphics used in the report.

We appreciate that the agency is in the process of reviewing the use of tracking time to projects
and the cost benefits associated with different solutions. In order to quantify total resources
devoted to the 50th Anniversary we attempted to estimate the time and labor costs for individuals
that devoted a significant amount of time to the 50 th Anniversary.

Similarly, we noted that to quantify the total financial impact of the 50th Anniversary the agency
would need to include the cost associated with the three hours of administrative leave and may
also want to consider the impact of encouraging staff to use the Employee Volunteer Program to
serve at the Smithsonian Festival. In our experience, tracking and quantifying such data is
valuable for management to gain a greater understanding all aspects of a program and for making
future decisions.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                 40
APPENDIX G

                  AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                     Hal Nanavati, Lead Auditor and Gabrielle Perret, Senior
                                     Auditor, performed the audit of the Peace Corps’ management
                                     of the 50th Anniversary Program.




                                     Bradley Grubb
                                     Assistant Inspector General for Audit

OIG CONTACT                          If you wish to comment on the quality or usefulness of this
                                     report to help us strengthen our product, please e-mail
                                     Assistant Inspector General for Audit Bradley Grubb, at
                                     bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: The Peace Corps’ Management of the 50th Anniversary Program                    41
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
 fraud, or unlawful activity involving the Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                                   Hotline:
          U.S./International:       202.692.2915
          Toll-Free (U.S. only):    800.233.5874

          Email:                    OIG@peacecorps.gov
          Web Form:                 www.peacecorps.gov/OIG/ContactUs

          Mail:                     Peace Corps Office of Inspector General
                                    P.O. Box 57129
                                    Washington, D.C. 20037-7129

                      Main Office: 202.692.2900
